<html>
<title> - ASSESSING THE RESPONSE TO TYPHOON YOLANDA/HAIYAN</title>
<body><pre>[Senate Hearing 113-155]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-155

 
            ASSESSING THE RESPONSE TO TYPHOON YOLANDA/HAIYAN

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
?


                  U.S. GOVERNMENT PRINTING OFFICE
86-354                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  

                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
BARBARA BOXER, California            RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
EDWARD J. MARKEY, Massachusetts      JOHN McCAIN, Arizona

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Konyndyk, Jeremy, Director, Office of Foreign Disaster 
  Assistance, U.S. Agency for International Development, 
  Washington, DC.................................................     7
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    25
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..     2
Marciel, Hon. Scot, Principal Deputy Assistant Secretary, Bureau 
  of East Asian and Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senator 
      Benjamin L. Cardin.........................................    27

              Additional Material Submitted for the Record

Map Submitted by Jeremy Konyndyk.................................    25
Super Typhoon Haiyan (Yolanda) Catastrophic Damage in Tacloban 
  Map............................................................    28

                                 (iii)

  


                       ASSESSING THE RESPONSE TO 
                         TYPHOON YOLANDA/HAIYAN

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Markey, Rubio, and Flake.
    Also Present: Senator Brian Schatz.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, good morning. Let me welcome you all 
to the Subcommittee on East Asia and the Pacific from the 
Senate Foreign Relations Committee.
    Let me thank Chairman Menendez for allowing us to conduct 
this subcommittee hearing on such short notice.
    Senator Rubio, thank you very much for your help, and your 
staff's help, in arranging this hearing in record time.
    When they say the Senate cannot act quickly, we did act 
quickly on putting this hearing together, and I very much 
appreciate that, all the people who worked to make this 
possible.
    To Ambassador Cuisia, it is nice to see you again. We were 
together yesterday in Bowie. I will refer to that a little bit. 
But, the Filipino Ambassador to the United States is a friend 
and has been extremely helpful to us. Shortly after the 
typhoon, we had a chance to talk, and, at that time, I 
expressed our deep condolence on the loss of life as a result 
of the typhoon and America's interest to exercise leadership 
internationally in assisting the Filipinos in the recovery, 
saving lives, and dealing with the restorations that are going 
to be necessary for the people of the Philippines.
    The tragic typhoon, Yolanda, was horrible, tragic. The 
numbers that we have from yesterday--as of yesterday, from 
USAID--indicates that over 10 million people were affected. 
There were close to 4,000 confirmed deaths, to date. That 
number will certainly change, unfortunately. Four million 
people have been displaced, 571,000-plus homes were damaged or 
destroyed by the typhoon. And the U.N. humanitarian action puts 
the emergency response humanitarian dollar need at over $300 
million. And I know that that is just an estimate. It could 
very well exceed those numbers. And obviously, it presents a 
real challenge.
    I wanted to also acknowledge Senator Schatz, who is with us 
today representing the State of Hawaii. He is not a member of 
our committee, but he has been deeply concerned about this 
issue. Many Filipino Americans live in Hawaii, and I know that 
he has been very actively engaged, and we welcome you to this 
hearing.
    The Philippines is a close ally of the United States. I 
need not tell that to the people in this room. We know the 
sacrifices that they endured during World War II, their 
incredible strategic partnership with the United States. It is 
a very important partner of the United States. And obviously we 
are concerned about humanitarian needs anywhere, but, when it 
hits one of our friends, it is a particular concern to the 
United States.
    The response has been led by the Philippine Government, as 
it should, and they recognized immediately that they needed 
help. And the United States responded, even before the typhoon 
struck, by positioning resources, knowing that it may well have 
been needed. In fact, it was needed.
    I am proud of the U.S. leadership committing $20 million in 
aid. The USAID Disaster Assistance Response Team is on the 
ground. We appreciate that very much. The Department of Defense 
has mobilized in the region, and the State Department has been 
engaged. So, there has been a United States response, with the 
international community, to assist the Philippine Government. 
The immediate needs have been in the area of food, water, 
medicine, and logistics. The long-term needs are going to be 
the rebuilding of the affected areas. And clearly that will 
become a challenge for the Philippine islands and for the help 
of the international community.
    It is personal to many people in America. We have 4 million 
Americans of Filipino descent that live in America. In my own 
State of Maryland, we have 26,000. And yesterday, with the 
Ambassador's assistance, and, Jeremy, with your help, we met 
with representatives of the Filipino community in Maryland. And 
they are obviously very anxious, because they have relatives 
and friends that were directly impacted, and they are worried 
about their well-being. They also are frustrated because they 
want to help, and how can they help? And that is a question 
that we are going to try to focus on during this hearing, is, 
How can individuals help in the response effort? What is the 
best way to do it?
    I thought the meeting in Bowie was particularly helpful, 
but it was clear to me that we have to keep a focus on what is 
happening. And that brings me to this hearing. The purpose, of 
course, is to get an update as to where the circumstances exist 
today in the Philippines, what is the government doing, what is 
the international response, and what role America is playing on 
this latest humanitarian need.
    With that, let me turn it over to Senator Rubio for his 
comments.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Well, Mr. Chairman, thank you for holding 
this timely hearing.
    Over the past week, our hearts have been broken by the news 
and the images that have been coming out of the Philippines. 
Entire towns and villages, and of course the lives of real 
people, have been ruined. Thousands of human beings are dead, 
and the toll continues to rise every day.
    It is in times like these, by the way, where we are 
reminded of how important an engaged America is for the world, 
especially for allies like the Philippines. We, as a nation, 
have pledged to provide the Filipino people with humanitarian 
assistance, and deployed some of our brave men and women in 
uniform to assist with these efforts.
    And, as yesterday's front page of Florida Today--which is a 
newspaper in my State's Space Coast--ran a story that sums up 
what impact we are having, and the good will that it engenders.
    So, in addition to being the right thing to do morally, 
this has a foreign policy implication for our country. Let me 
tell you what it says in the article, briefly. It says, ``U.S. 
Military a Godsend for Typhoon Victims.'' `` `They are saving 
us,' says one grateful victim.''
    As Americans, this is what we have always done as a people. 
This is who we still are. Contrast that, by the way, with 
Beijing, whose initial pledge was $100,000--$100,000, just a 
fraction of what was committed by other countries a fraction of 
their size. They have, of course, increased that pledge now to 
1.6 million, in U.S. dollars--again, still dwarfed by what 
China can and cannot do. It is a separate conversation to be 
had, but a point of why it is so important that the United 
States remain engaged.
    By the way, our assistance is not just limited to what our 
governments can do. American civil society, like non-for-
profits, like the American Red Cross, and faith-based 
organizations, like Samaritan Purse and the Tim Tebow 
Foundation, have stepped up to help Americans turn their desire 
to help into action. This includes, by the way, many Floridians 
of Filipino descent, who have expressed a number of concerns I 
will address in my questions later on. And, as the chairman has 
already pointed out, Americans of Filipino descent are a 
significant part of our country involved in every aspect of our 
lives. In my own office, my chief of staff, Cesar Conda, who is 
here today, has family in the Philippines. And so, this is an 
issue that reaches all of us.
    As a nation, we all know too well about the tragedies that 
natural disasters can cause. We know about how to save lives 
and help ensure much-needed food, water, and supplies reach the 
people who need it most. And we know about the resilience of 
the human spirit and how to rebuild our communities better and 
stronger than ever. Our example, our assistance, and our 
prayers are needed, today more than ever, by our allies in the 
Philippines, because, again, this is simply who we are as a 
people. This is who we are and have been and continue to be as 
Americans.
    In return, the American people, as taxpayers, as charitable 
donors, expect us to ensure that this assistance does what it 
is intended to do and reaches whom it is intended to reach. We 
recognize that nothing does more to undermine Americans' 
willingness to help other nations in time of need than seeing 
unscrupulous actors filling the void left in the wake of 
natural disasters and exploiting the moment. So, it is 
important to ensure that that does not happen, as well.
    So, I look forward to learning more about the 
administration's plans to ensure that our response to the 
calamity in the Philippines is swift, transparent, and 
effective. And I thank you, Mr. Chairman, for making this a 
priority.
    Senator Cardin. We also recognize Senator Flake, who is on 
the subcommittee. Nice to have you here. Thank you for being 
here.
    I am going to turn to our two witnesses, at this point. 
First, the Honorable Scot Marciel, the Principal Deputy 
Assistant Secretary, Department of State, Bureau of East Asia 
and Pacific Affairs. Scot Marciel began his term as Principal 
Deputy Assistant Secretary in August 2013 after serving for 3 
years as the U.S. Ambassador to the Republic of Indonesia. He 
has previously served as the Assistant Secretary, East Asia and 
Pacific Bureau, responsible for relationships with Southeast 
Asia, and the Ambassador for the ASEAN Affairs. Deputy 
Assistant Secretary Marciel is a career member of the Senior 
Foreign Service and joined the State Department in 1985. So, we 
thank you very much for your long, distinguished career in 
public service.
    Our second witness will be Jeremy Konyndyk, the Director of 
USAID's Office of Foreign Disaster Assistance, who has delayed 
his trip to the Philippines to be here today. We thank you very 
much. And I very much appreciate the fact that you traveled all 
the way to Bowie, MD, yesterday to be with me and the Filipino 
community in Maryland. I thought that was very helpful, and I 
was very impressed by the coordinated efforts that you have 
undertaken on behalf of USAID.
    We will start with Mr. Marciel.

  STATEMENT OF HON. SCOT MARCIEL, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Marciel. Thank you, Mr. Chairman, Senator Rubio, 
Senator Flake, Senator Schatz, for giving me this opportunity 
to testify on the U.S. Government's response to Super Typhoon 
Yolanda, which struck the Philippines on November 8.
    The typhoon, which was, as you know, one of the largest and 
strongest in history, struck the central Philippines from the 
east and carved a swath of destruction across the middle of the 
country. Hardest hit were Leyte, which is the site of General 
MacArthur's return to the Philippines in 1944, Samar, and a 
series of other islands. The typhoon's winds and a major storm 
surge killed an estimated 4,000 people, left hundreds of 
thousands of others homeless, and devastated cities, towns, and 
villages.
    Even before the storm hit, U.S. Government agencies began 
preparing to respond. USAID prepositioned a team in Manila. Our 
Embassy in Manila issued a message warning American citizens of 
the storm, urging that they seek shelter. And many of us in 
Washington began to communicate and coordinate to prepare to 
respond to the storm.
    Then, once the storm hit, the State Department, USAID's 
Office of Foreign Disaster Assistance, the Pentagon, Pacific 
Command, all working closely with the U.S. Embassy in Manila, 
began intensive communication and coordination to ensure a 
swift, effective, and transparent response. So, USAID and PACOM 
Disaster Assessment Teams went almost immediately to Tacloban, 
which you all have seen in the press, to coordinate our 
response, working very closely, of course, with Philippine 
authorities, who, as you said, Mr. Chairman, have the lead on 
this.
    There was an immediate agreement, throughout the 
administration at all levels, on the need for a rapid, 
effective response, both because of the scale of the disaster 
and because--as you said, Mr. Chairman--because the Filipinos 
are long-time friends and allies of the United States.
    So, Jeremy is going to describe in detail the efforts on 
the ground. What I would like to do is highlight that the U.S. 
Government's response has been, I think, extremely well 
coordinated and substantial. Within a few days of the disaster, 
USAID had announced $20 million in humanitarian assistance, 
and, just a few days ago, announced an additional $10 million 
in assistance. So, as of yesterday, combined U.S. Government 
assistance in response to the disaster totaled $37 million. 
That includes $7 million of Defense Department funds.
    Our military, as you know, has deployed substantial assets 
to assist, and, with the help of USAID colleagues and U.S. 
military on the ground, our assistance is reaching people in 
the affected areas and is making a difference. And, of course, 
U.S. companies, foundations, and private citizens are also 
contributing.
    President Obama and Secretary of State Kerry have called 
their Philippine counterparts to offer condolences and 
assistance, and to stress our commitment to helping the 
Philippines respond to, and recover from, this disaster. At the 
State Department, we set up a Crisis Response Task Force to 
monitor developments and try to identify any obstacles to 
effective relief supply, and make sure we were well 
coordinated, as well as deal with a lot of calls from concerned 
American citizens. Our Embassy in Manila continues to play a 
very crucial role. It is kind of serving as a platform for 
coordination of all the agencies working through them to 
coordinate with Philippine authorities and private 
organizations, as well.
    The State Department and the Embassy have a special 
responsibility for helping American citizens caught up in the 
disaster. There are now five confirmed American deaths caused 
by the typhoon. The State Department and the Embassy have been 
working pretty much around the clock to assist the families of 
those victims, but also have received nearly 1,000 requests for 
information from U.S. citizens--or, on U.S. citizens in the 
disaster area, and we have located almost 500--about 475 
American citizens through our efforts.
    Our consular officers from the Embassy are visiting 
Tacloban and the area around it pretty regularly to try to help 
out with those American citizens' services. And we continue, of 
course, to work very closely with the Philippine authorities, 
making sure to address any security concerns--again, 
identifying any obstacles to relief, and asking them constantly 
what more they need, so that our response is effective and 
targeted.
    President Obama told President Aquino, during a November 12 
phone call, that the United States was fully committed to a 
swift and coordinated response to help the people of the 
Philippines recover, and that we stand shoulder to shoulder 
with the Philippines, our treaty ally.
    Mr. Chairman, Senator Rubio, other members, thank you again 
for allowing me to appear. I would be delighted to answer any 
questions.
    Thank you.
    [The prepared statement of Ambassador Marciel follows:]

                Prepared Statement of Hon. Scot Marciel

    Thank you Mr. Chairman, Senator Rubio, and other members of the 
subcommittee for giving me this opportunity to testify on the U.S. 
Government's response to Super Typhoon Haiyan, which struck the 
Philippines on November 8.
    The typhoon, one of the largest and strongest in history, struck 
the central Philippines from the east, and carved a swath of 
destruction across the middle of the country. Hardest hit were Leyte, 
site of General MacArthur's return to the Philippines in 1944, Samar, 
and a series of other islands. The typhoon's incredible winds, plus a 
major storm surge, killed an estimated 4,000 people, left hundreds of 
thousands of others homeless, and devastated cities, towns, villages, 
and the region's infrastructure.
    Even before the storm hit, U.S. Government agencies began preparing 
to respond. USAID prepositioned a team in Manila, our Embassy in Manila 
issued a message warning American citizens of the storm, and many of us 
in Washington began to communicate and coordinate in preparation for a 
potential disaster.
    Once the storm hit, the State Department, USAID's Office of Foreign 
Disaster Assistance, the Pentagon, and the Pacific Command--working 
closely with the U.S. Embassy in Manila--began a period of intensive 
communication and coordination to ensure a swift and effective 
response. USAID and PACOM disaster assistance teams headed to Tacloban, 
the capital of hard-hit Leyte province, and moved rapidly to conduct 
joint disaster assessments. USAID is leading and coordinating the U.S. 
Government response, including with other donors.
    There was immediate agreement within the administration on the need 
for a rapid, effective response, both because of the scale of the 
devastation and because of the close historic and people-to-people ties 
between the United States and the Republic of the Philippines.
    My colleagues from USAID will describe in detail their agencies' 
efforts here and on the ground. I would simply highlight that the U.S. 
Government's response has been rapid, well-coordinated, and 
substantial. Our Embassy in Manila announced an initial $100,000 in 
assistance almost immediately, and USAID announced $20 million in 
humanitarian assistance a few days later, and an additional $10 million 
in humanitarian assistance on November 18. Including another $7 million 
in humanitarian assistance through the Defense Department, the combined 
U.S. Government assistance being provided in response to the disaster 
is $37 million.
    President Obama and Secretary of State Kerry have both been 
monitoring the situation closely. Both have called their Philippine 
counterparts to offer condolences and assistance, and to stress our 
commitment to helping the Philippines respond to and recover from this 
disaster. The State Department also set up a Crisis Response Task Force 
to help monitor and report on developments, help identify any obstacles 
to effective relief supply, help facilitate coordination with other 
agencies, and deal with large numbers of phone calls from concerned 
Americans.
    Our Embassy in Manila has also played an important role. It has 
served, for lack of a better term, as a physical platform for all of 
the agencies involved in the relief effort, as well as a center for 
coordination and communication with other agencies, Philippine 
authorities, and private organizations and citizens.
    The Embassy and the State Department as a whole have as a top 
priority helping American citizens caught up in this disaster. In the 
days before Haiyan made landfall we activated our messaging system and 
warden network so that American citizens who had registered with 
Embassy Manila would get the word that a colossal storm was coming, and 
that they needed to find refuge, immediately. We put warnings up on our 
Embassy Web site. We also tweeted warnings, not only to the American 
community but to our Filipino and third-country friends. In both Manila 
and here in Washington, we mobilized human resources for deployment in 
the event of a catastrophic storm--a mobilization that helped us move 
quickly when damage assessments started coming in. In both cities, we 
consulted with senior Philippine Government officials on prospective 
relief operations.
    There are, Mr. Chairman, now five confirmed American deaths caused 
by the typhoon which reportedly killed about 4,000 people and injured 
more than 18,000 people. The State Department has been working around 
the clock to assist those who have lost loved ones. The Embassy has 
received nearly 950 requests for information on U.S. citizens in the 
disaster area, and we have located more than 475 U.S. citizens at this 
time. Our first consular team arrived in Tacloban on November 13, to 
assist the evacuation of American citizens from the region, and 
consular officers are traveling to Tacloban regularly to provide any 
assistance required by American citizens. A second team has met 
evacuated Americans upon their arrival at Villamor Air Base, providing 
emergency cash assistance and help with emergency loan applications. We 
will do everything we possibly can to locate and assist these U.S. 
citizens. In both Manila and Washington, we are responding to phone 
calls and e-mails from the many concerned relatives of those who are 
missing.
    The American people have responded to this natural disaster with an 
outpouring of support, not least of all in the Philippines itself, 
where the American business community has made donations to help those 
in storm-hit areas. The U.S. Embassy has worked with the American 
business community to ensure that donations are channeled most directly 
and effectively. As President Obama said, the best way for private 
parties to help is to make a monetary donation to a relief organization 
already working to provide aid on the ground. Begun months ago in 
anticipation of a future disaster, our public-private coordination has 
already made a meaningful difference in the relief effort, through 
monetary donations, as well as the donation of mobile power generators, 
transport equipment, and other goods.
    The United States is also coordinating with other international 
donors, and together, donors have already pledged funding nearly $200 
million, an amount equal to about two-thirds the U.N. flash appeal of 
$301 million.
    The Department of State is working closely with Philippine 
Government officials, not only at the working level but also at higher 
levels. We have activated our response in close partnership with the 
Philippine Government, which has been helpful in facilitating the entry 
of assistance into the country, responding quickly to security 
concerns, and identifying urgent needs. At every such meeting, we 
underline what President Obama told President Aquino during their 
November 12 phone call: that the United States is fully committed to a 
swift and coordinated response to help the people of the Philippines 
recover. That we stand shoulder to shoulder with the Philippines, our 
treaty ally with whom we have kept the peace in the Asia-Pacific for 
more than 60 years. Given the strength of the Philippine people and the 
U.S. commitment to the bilateral relationship, I believe that Filipinos 
will emerge from the current difficulties even stronger than before. 
Similarly, I am convinced that our joint work to help the victims of 
Super Typhoon Haiyan will deepen the already robust U.S.-Philippine 
partnership and demonstrate U.S. commitment to this alliance and to our 
rebalance to the region.
    Mr. Chairman, Senator Rubio, and other subcommittee members, thank 
you for allowing me to appear before you today.

    Senator Cardin. Well, thank you very much.
    Mr. Konyndyk.

   STATEMENT OF JEREMY KONYNDYK, DIRECTOR, OFFICE OF FOREIGN 
DISASTER ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Konyndyk. Thank you, Chairman Cardin. Thank you, 
Ranking Member Rubio. And thank you also for joining us, 
Senator Flake and Senator Schatz. And thank you for the 
invitation to testify on the ongoing U.S. Government response 
to Typhoon Haiyan, known locally in the Philippines as Typhoon 
Yolanda. And thank you also very much for your continued 
support of U.S. humanitarian programs around the world, which, 
every day, as they are doing currently in the Philippines, are 
saving many, many lives.
    Chairman Cardin, I want to thank you, as well, for the 
invitation to participate yesterday in the event in Bowie. It 
was very enjoyable, and it was good to see the energy that 
exists in the Filipino-American community, and their deep, deep 
commitment to helping with the response to this.
    Super Typhoon Haiyan was one of the most powerful storms 
ever to make landfall, and the Government of the Philippines 
estimates that around 10 million people have been affected, of 
whom 4 million have been displaced from their homes and roughly 
4,000 deaths have, so far, been confirmed.
    The devastation and the loss of life is absolutely 
staggering, and I want to express my deepest condolences, and, 
of course, on behalf of USAID, our deepest condolences, to the 
people of the Philippines for these horrific losses.
    In the face of this disaster, the U.S. Government has 
mobilized the full range of our humanitarian response 
capabilities. My office, the Office of Foreign Disaster 
Assistance at USAID, is mandated to direct and coordinate that 
overall USG humanitarian effort, in close partnership with our 
military, State Department, and a range of other interagency 
colleagues. And I have to say that the collaboration and 
cooperation we have seen across the USG in assistance has been 
absolutely exemplary, and we have seen tremendous collaboration 
and coordination both here in Washington and in the 
Philippines.
    Before the storm hit, the U.S. response was already 
beginning. Our hydrometeorological experts identified the 
severity of the storm, and the Office of Foreign Disaster 
Assistance predeployed a Disaster Assistance Advance Team in 
Manila. That team was on the ground in Leyte province almost 
immediately after the storm passed through, and was beginning 
to assess damage and send back reports on assistance 
priorities. And we rapidly stood up a Response Management Team, 
back here in D.C., as well, and started sending people out to 
the Philippines to lead that response.
    We have been working hand in glove with the Department of 
Defense's Pacific Command, which has proved absolutely 
critical. There were enormous logistical constraints that we 
faced in the first days after the storm, and the DOD 
involvement has been vital to getting some of those obstacles 
cleared and enabling the initial aid effort to gain momentum.
    As Scot said, we have mobilized, now, across the U.S. 
Government, more than $37 million in assistance to help 
typhoon-affected populations. And, while much still remains to 
be done, we are beginning to see some notable progress.
    Several days ago, USAID partnership with UNICEF and the 
Government of the Philippines, with support from DOD, got the 
water turned back on in the city of Tacloban, restoring clean 
water to roughly 200,000 people in that town. That was a major 
accomplishment. DOD has, so far, transported than 1,000 metric 
tons of relief commodities to communities throughout the 
affected areas. And USAID's Food for Peace Program, in 
partnership with the Government and the World Food Programme, 
has provided, really, the backbone of support to a joint food 
response that, so far, has fed 1.9 million people.
    Going forward, we are seeing a range of different needs. 
And I will go through those quickly and turn it over for 
questions.
    On logistics, that will remain a challenge. That has been 
the major challenge, as I think everyone is aware. We have seen 
real progress in clearing of blocked roads, restoration of 
airport services, and, notably in the past few days, 
restoration of ferry services to enable much greater scale of 
aid to reach affected areas. So, we are seeing improvements 
here, but it still will remain a major focus.
    Food will also remain a major focus. We anticipate 2\1/2\ 
million people will require emergency food aid over the next 6 
months. USAID has, so far, provided $10 million in food 
support--that is, working with the World Food Programme.
    And, in particular, I want to emphasize the importance of 
flexible cash programming for food aid in this instance. We 
were able, using some of the flexibility that Congress has 
granted us, to procure 2,500 metric tons of rice on local 
markets in the Philippines for immediate distribution. This was 
much faster than would have been possible using traditional 
food-aid tools. So, that flexibility has really helped enhance 
the response.
    We are also focusing quite a lot on water. As I mentioned 
earlier, we helped get the water turned back on in Tacloban 
City. And, looking ahead, we are continuing to source 
generators for water pumping stations, to provide chlorine 
tablets for household-level treatment of water, and bulk 
chlorine for larger scale treatment, as well as providing 
family water containers for transport of clean water.
    Shelter remains an urgent priority, as well. And I know, 
Senator Cardin, you have seen the emergency shelter sheeting 
kits that we are currently distributing. And that is--we have--
we will have distributed enough of those for about 30,000 
families' needs.
    I want to just conclude quickly. And I see I am over time. 
We are looking ahead to the early recovery process. We are 
starting to plan on that. And I want to just call specific 
attention, again, to the important contributions of the 
Filipino-American community in the United States. We are 
looking for ways to partner with them. We are setting up some 
mechanisms for that, and they will be a critical piece of that 
response, going forward.
    Thank you.
    [The prepared statement of Mr. Konyndyk follows:]

                   Prepared Statement Jeremy Konyndyk

    Chairman Cardin, Ranking Member Rubio, and members of the 
subcommittee, thank you for inviting me to testify on the ongoing U.S. 
response to Typhoon Haiyan, known locally in the Philippines as Typhoon 
Yolanda. Thank you also for your continued support for our humanitarian 
programs around the world, which make a positive difference every day 
in the lives of millions.
    It is truly heartbreaking to see the devastation and loss of life 
caused by Super Typhoon Haiyan, and I would like to express my deepest 
condolences to those who lost loved ones due to the storm.
    Super Typhoon Haiyan struck the central Philippines on the morning 
of November 8 local time. The storm was one of the most powerful 
typhoons ever to make landfall, bringing heavy rains and sustained 
winds of up to 195 miles per hour, and a resulting storm surge that 
caused near complete destruction in many coastal areas of East Samar 
and Leyte provinces.
    The strong, experienced disaster preparedness and response capacity 
of the Government of the Philippines undoubtedly saved countless lives. 
For more than two decades, the U.S. Agency for International 
Development's Office of U.S. Foreign Disaster Assistance and Mission in 
the Philippines have worked with the Philippine Government to 
strengthen its disaster management system and response capabilities. 
Prior to the storm making landfall, the Philippine Government evacuated 
792,000 people to 109 evacuation centers in 22 provinces. In the first 
24 to 48 hours, the government quickly triaged and evacuated many 
critically injured survivors to receive medical care, and subsequent 
government response efforts have been aggressive--mobilizing airlifts 
of safe drinking water, relief supplies, and food commodities to 
Tacloban and other hard-hit areas.
    As of November 18, an estimated 10 million people have been 
affected and more than 4 million individuals have been displaced across 
44 provinces in the Philippines, according to the Philippine National 
Disaster Risk Reduction and Management Center (NDRRMC). There are at 
least 4,000 deaths, and this figure will likely continue to fluctuate 
pending further verification.
    On November 12, the U.N. released a Humanitarian Action Plan 
requesting $301 million for the response, including approximately $76 
million for food assistance; $46 million for shelter; $31 million for 
livelihoods; $22 million for water, sanitation, and hygiene (WASH) 
activities; and $21.5 million for health. As of November 13, 
international donors had pledged approximately $193 million in funding 
to address humanitarian needs among populations affected by Typhoon 
Haiyan. The total amount pledged represents more than 64 percent of the 
$301 million requested by the U.N. Humanitarian Action Plan.

                         U.S. RESPONSE EFFORTS

    As Principal Deputy Assistant Secretary of State Marciel said, the 
U.S. response to Typhoon Haiyan has mobilized capacities across the 
U.S. Government (USG). The Administrator of USAID is the President's 
Special Coordinator for International Disaster Assistance, an authority 
that is executed by my office--the Office of U.S. Foreign Disaster 
Assistance (USAID/OFDA). USAID/OFDA is charged with directing, 
coordinating, and prioritizing the overall U.S. humanitarian response 
effort, working closely with our interagency colleagues as well as 
other USAID offices, including USAID's Office of Food for Peace to help 
meet emergency food needs, as well as USAID's Asia Bureau and the USAID 
Mission in the Philippines.
    In anticipation of Typhoon Haiyan, USAID predeployed disaster 
experts to the Philippines, enabling us to conduct some of the first 
rapid assessments of hardest-hit areas and establishing teams to lead 
and coordinate the USG humanitarian response. Our response management 
structure ensures a fast and flexible response, efficient and effective 
action, clear communication, and clear lines of authority.
    Consistent with our mandate to direct and coordinate the overall 
USG response, USAID is working hand in glove with the Department of 
Defense (DOD) Pacific Command up and down the chain of command to 
ensure the U.S. response effort is effective, timely, and comprehensive 
in reaching the response needs identified by the USAID team on the 
ground.
    On November 11, USAID's field-based Disaster Assistance Response 
Team (DART) leader and the Commanding General of III Marine 
Expeditionary Brigade Forward Command Element conducted the first U.S. 
aerial assessments in severely affected Tacloban City in Leyte province 
and neighboring areas, including the southern coast of Samar Island. We 
have since worked together to airlift critically needed aid to the 
affected areas and address major logistical obstacles, working jointly 
to transport U.S. humanitarian assistance to affected areas. USAID is 
also supporting delivery for the humanitarian community, enabling 
United Nations, the Philippine Government and other international 
responders to utilize DOD airlift capacity. The collaboration and 
coordination between USAID and the U.S. military in this response has 
been exemplary.
    USAID's assessments in the days after the storm quickly identified 
shelter, water and sanitation, and food as immediate priority needs. In 
response to the storm, the USG is providing more than $37 million in 
humanitarian assistance to help typhoon-affected populations. USAID 
began to immediately call forward shelter materials and hygiene kits 
from our global stocks, mobilize food assistance, and support programs 
to address these priorities.
    The first airlift of USAID heavy-duty tarpaulins and family hygiene 
kits arrived in Manila on November 12, and the U.S. military flew these 
much-needed supplies to storm-affected communities in Guiuan City and 
surrounding communities on November 13. A second identical airlift 
arrived on November 15. In line with the Philippine Government shelter-
in-place strategy, these shipments support emergency shelter efforts 
that work with households to identify salvageable material and heavy-
duty tarpaulin kits to address immediate shelter needs. USAID is 
providing enough materials to provide temporary shelter for 30,000 
families.
    On November 14, approximately 55 metric tons of USAID emergency 
food aid--airlifted from the USAID warehouse in Miami, FL--arrived in 
Cebu and was transported to Tacloban for onward distribution. The food 
commodities, comprising nutrition-dense food bars and other food items 
that do not require cooking, are sufficient to feed 15,000 adults and 
20,000 children for 5 days. These rapid efforts helped families in 
hard-hit areas begin to meet basic food, shelter, and hygiene needs.
    Progress has accelerated since those initial efforts. In 
partnership with UNICEF and with the help of DOD-supplied fuel, USAID 
helped Tacloban's municipal water pumping station regain full 
functionality on November 17, providing access to safe drinking water 
for up to 200,000 people. We are also taking other measures to improve 
access to, and distribution of, safe drinking water, including 
mobilizing water tanks, distributing jerry-cans, and installing mobile 
water treatment units.

                             PRIORITY NEEDS

    Despite the significant progress over the past week and a half, 
significant needs remain:
Logistics
    In the immediate aftermath of the storm, the relief effort was 
badly hampered by destroyed infrastructure and blocked roads. For the 
first several days, the only means of delivering aid to Tacloban City 
was through the small and badly damaged city airport. Land routes into 
the city and toward outlying areas were blocked by debris, and the 
destruction of buildings had made many roads impassable in the city. 
Though aid was available, the throughput capacity of the airport was 
extremely limited, and ``last mile'' distribution--challenged by 
impassable roads--created bottlenecks for the little aid that did 
arrive at the airport.
    Helping the government address these logistical constraints has 
been a top USG priority, and the partnership between USAID and the U.S. 
military has been crucial to the progress seen in recent days. We have 
sought to address logistical challenges by supporting combined U.S. 
Government, Philippine Government, and U.N. efforts. Government road 
clearing has opened up many transport routes. DOD has operated an air-
bridge between Manila, Tacloban, and Guiuan, thereby facilitating 
allowed access to most-affected Tacloban City, as well as outlying 
areas. The opening of roads has also enabled a World Food Programme 
(WFP) land-bridge between Cebu, Ormoc, and Tacloban, further expanding 
the logistics network and easing congestion at the airports.
    Remaining challenges include fuel supply in some affected areas, 
and availability of smaller vehicles for end-point distribution of 
relief to affected populations. WFP is sourcing additional trucks that 
will arrive in Tacloban with relief commodities in the coming days and 
will remain in the area to facilitate the transport and distribution of 
supplies to populations in need. Despite the remaining challenges, the 
progress made over the past week means the humanitarian relief effort 
is now gaining momentum with significant international contributions 
and strong engagement and support from the Government of the 
Philippines.
Food
    An estimated 2.5 million people are expected to require emergency 
food assistance over the next 6 months. USAID is providing $10 million 
toward WFP's Emergency Operations Program that will work to help these 
vulnerable storm-affected individuals.
    In the wake of the disaster, we have been able to use cash to 
immediately purchase food locally in the Philippines to meet urgent 
needs. A cash contribution from USAID enabled WFP to purchase 2,500 
metric tons of rice in local markets for inclusion in the family food 
packs that the Philippine Department of Social Welfare and Development 
is distributing to typhoon-affected populations. By November 15, the 
family food packs had reached more than 170,000 people. These packs 
supply more than six pounds of rice and canned goods--an amount 
adequate to feed a family of five for up to 3 days. The food that WFP 
procured with U.S. funds was able to arrive faster than the 
prepositioned food that the U.S. airlifted.
    USAID funds have also allowed WFP to procure 555,000 packets of 
high-energy biscuits, which arrived in Tacloban on November 13 for 
onward distribution to evacuees and other vulnerable populations in 
typhoon-affected areas. WFP distributed packets of high-energy biscuits 
to 5,000 people awaiting evacuation at Tacloban airport on November 14, 
and distributions of the biscuits are ongoing in Guiuan and Tacloban.
    The U.S. response to the Typhoon Haiyan in the Philippines 
illustrates why greater flexibility in our food aid programs is needed.
Water
    The typhoon has damaged most if not all water infrastructure in 
affected areas, while a lack of power has left some water systems 
inoperable. Current response efforts are expected to adequately address 
sanitation and hygiene needs, as well as medium-term water production 
capacity through existing water pump stations.
    Following a disaster of this magnitude, humanitarian organizations 
typically focus on identifying and restoring sources of safe drinking 
water that have not been damaged, such as groundwater sources that can 
be treated with chlorine and wells that are intact but require 
generators for production. USAID partners are currently sourcing 
generators for a water pumping station that is expected to supply water 
in the coming weeks. Additional USAID partners are providing chlorine 
tablets for household-level treatment and utilizing bulk chlorine for 
larger scale treatment, as well as providing water containers to assist 
with distribution.
    In addition, USAID has directed its Be Secure program--an existing 
USAID program focused on water security for resilient economic growth--
to support the Philippine Local Water Utilities Administration (LWUA) 
to conduct rapid damage assessments of water systems and facilities in 
Aklan, Cebu, Iloilo, Leyte, Negros Occidental, and Samar provinces. 
LWUA and Be Secure plan to send six teams--29 people--to conduct the 
rapid assessments over a 5-day period.
    The assessments will serve as the basis for prioritizing assistance 
to critical areas and identifying appropriate interventions to repair, 
rehabilitate, and develop water systems able to withstand future 
hydrologic disasters.
Emergency Shelter
    Emergency shelter is a priority humanitarian need in the immediate 
aftermath of the typhoon, which damaged or destroyed nearly 600,000 
houses. USAID and DOD are supporting the government's shelter-in-place 
approach by distributing plastic sheeting, which affected populations 
can use with locally available materials to create temporary shelters. 
USAID is also supporting the distribution of shelter kits to typhoon-
affected households.
Health
    Due to immediate health concerns caused by the effects of the 
typhoon, numerous actors have begun health-related relief activities to 
address the immediate needs of typhoon-affected populations. The Armed 
Forces of the Philippines successfully evacuated severely injured 
persons out of Tacloban City within 24 to 48 hours after the typhoon 
made landfall. The Philippine Government has established several field 
hospitals and continues to identify appropriate sites to place 
additional hospitals already in-country. Relief organizations have set 
up numerous other health points and are providing medical supplies, 
pharmaceuticals, and medical staff to assist the most vulnerable. The 
U.N.'s health coordination cluster and the Philippine Department of 
Health have said in the past several days that the needs in the health 
sector are now being met and that additional relief should be directed 
toward other priorities.
    Our USAID mission in the Philippines has played an important role, 
providing six solar-powered refrigerators from its existing health 
project to enable the Philippine Government to implement a mass 
immunization program against measles and polio and thus prevent disease 
outbreaks in the affected areas. Additionally, USAID, in response to a 
government request, has provided two technical advisors to the 
Department of Health to help develop a mid-to-long-term health recovery 
and rehabilitation plan.

                               NEXT STEPS

    In this initial response phase, USAID has focused on programs that 
provide emergency shelter, increase food security; and improve the 
water, sanitation and hygiene situation. Our programs remain flexible 
to allow us to meet needs that are identified by the Philippine 
Government.
    Looking beyond the immediate emergency response, USAID has already 
initiated and will continue to pursue and coordinate medium- and long-
term recovery and rehabilitation planning in consultation with the 
U.N., international donor community, and the Philippine Government. 
Concurrently, existing USAID programs in the Philippines will 
facilitate recovery and rehabilitation efforts. For example, through 
the Cities Development Initiative, a focus of the Partnership for 
Growth, recovery programs will work to bolster the environmental 
resilience of affected cities to mitigate impact of future disasters--
both in the typhoon-affected areas as well as countrywide. As the 
second most disaster prone country in the world, the Philippines loses 
up to 2 percent of its gross domestic product to national disasters 
each year. Therefore, USAID's country strategy has the achievement of 
environmental resilience as one of its three development objectives for 
the Philippines.

                               CONCLUSION

    The typhoon that struck the Philippines was devastating. Lives were 
lost, homes were destroyed, and livelihoods were decimated. Helping 
provide aid to the 10 million people affected by this disaster is an 
extraordinary logistical challenge, but the United States is meeting 
the challenge, working in support of the Philippine Government's strong 
response effort.
    In the wake of crisis, the generosity of the American people is 
evident. And I would be remiss if I did not call specific attention to 
the Filipino-American community's contribution. Their historic 
generosity in providing support to friends and relatives in the 
Philippines through remittances and in the wake of natural disasters is 
laudable. The United States has already begun outreach to the diaspora 
community, and USAID's Center for International Disaster Information 
has been invaluable in helping with our outreach effort. We encourage 
those who want to help to visit usaid.gov/haiyan for more information 
on how to make the most effective contributions.
    The United States was helping the people and Government of the 
Philippines long before this crisis, and we will continue to stand by 
them in their time of need.

    Senator Cardin. Well, thank both of you for testimony, and 
thank you for updating the dollar amount from the original $20 
million. Now we are close to double that, as far as the direct 
support that we have given. And I very much appreciate your 
testimony. I think Senator Rubio pointed out pretty clearly, 
U.S. leadership and what that is all about, and the fact that, 
but for U.S. leadership, the international partnership could 
not be as strong with the Government of the Philippine Islands.
    So, we are proud of what we have been able to do. Our 
technology in dealing with these crisis, we know--I mean, you--
I was impressed by the temporary shelters. They are pretty 
simple, but they do protect people from the elements and allow 
for international assistance, or local assistance, to provide a 
more permanent type of housing for individuals who were left 
homeless.
    These high-energy bars are interesting. I do not know 
whether I would--they were not--they are not on my diet, I see 
that. The number of calories that are included in these high-
energy--but, they are efficient, they keep people alive. And 
people were desperate immediately after the typhoon; they did 
not have food, and there was no place to get food. So, to be 
able to distribute these type of high-energy bars so that they 
can get through the day with enough calories to survive was 
critical, and we have the expertise here, through--this is, by 
the way, a--nine bars is included in this, so that is a--we 
know how to get this type of sustenance out, and I applaud the 
U.S. leadership.
    And then, on the logistics, I really do thank our 
Department of Defense. They understand how to get to people who 
have been isolated, and to get a better assessment.
    Let me just point out one other obvious point, here. And 
most of the damage was done on the coast, and that is what we 
saw. And we could reach the coast. We could not reach those 
communities that were isolated from the coast, so therefore, at 
least initially, there was not a good understanding as to the 
severity of the damage inland. Do we now have some indication 
as to whether there is going to be additional significant 
losses as a result of reaching people that we were not able to 
reach originally?
    Mr. Konyndyk. Shall I? Thank you, Senator.
    We did initially focus on the coast. We also did initial 
overland and overflight assessments in some of the inland 
areas, as well, working with our DOD colleagues. Our initial 
assessment was that the coastal areas were the worst affected, 
and so that was the first priority for focus. And, as that 
situation has started to--``stabilize'' may be too strong a 
word, but let us say ``head in the direction of stabilizing,'' 
we have also begun looking further afield, in partnership with 
Government of Philippines colleagues, to try to reach some of 
those inland areas.
    I would emphasize, as well, that our initial prioritization 
of the coast also reflected in what we have been given by the 
Philippines Government. So, from the early days, we were 
talking to mayors and governors from the affected provinces to 
get their input on where they would advise we focus, at first. 
And so, we followed that guidance fairly closely.
    We are getting better visibility now on what is the 
situation inland. And, while the loss of life is obviously 
less, because they did not face the storm surge, there is 
fairly significant damage to structures and to crops. And so, 
that is going to be a focus, going forward, and we are 
gathering more and more information on that every day. In fact, 
we had teams out today going to some of those areas.
    Senator Cardin. Thank you.
    The question that is frequently asked is, How well is the 
help being coordinated? The Catholic Relief Services, which is 
located in my State of Maryland--we are very proud of the role 
that they have played. They have a natural alliance and are 
very well represented in the Philippines. We know that they 
mobilized right away to help in regards to their international 
humanitarian mission.
    Can you just share with us how the coordination is taking 
place between the Philippine Government, international 
governmental responses, and the NGO responses, and how that is 
coming together?
    Mr. Konyndyk. Absolutely. Well, I think it is, first, 
important to emphasize that the Government of the Philippines 
is in the lead. And we have worked with them for what is sort 
of a good-news/bad-news story. On the one hand, we have a great 
relationship with them because we are there five or six times a 
year responding to disasters. The bad news is that we are there 
five or six times a year. But, because of that, we have a 
longstanding relationship with the Philippines authorities, the 
National Disaster Management Authorities there, and we work 
very closely and very well together. And they are in the lead, 
they have been providing invaluable information on priorities 
and needs.
    The U.N. has also activated what it calls the ``cluster 
system,'' which is the globally recognized system for 
coordinating response across United Nations, NGOs, and all 
humanitarian actors. And that is being coled with the 
Government of the Philippines, so they are directly integrated 
into that. And we are working very closely with that and then, 
within the U.S. Government, also have been doing nightly 
interagency calls and a variety of other mechanisms to make 
sure that, in our own--that we have our own house in order. And 
I think that it is been going fairly well, so far. As more and 
more NGOs and more actors come in, it will become a greater 
challenge.
    Senator Cardin. So, does the Government of the Philippines 
coordinate the capacities of the NGOs and the capacities of the 
participating international partners, as well as their own cash 
requirements? Is that all sort of balanced together?
    Mr. Konyndyk. Yes, their involvement in those cluster 
coordination meetings--which are by sector, so you will have a 
meeting on health every day, you will have a meeting on water 
every day--the Government of the Philippines is involved in 
those, so is able to hear what the NGOs' capacities are 
available, what their plans are, provide feedback on that, and 
provide feedback on priorities, in addition to its own 
activity.
    Senator Cardin. Now, as I mentioned, there were 4 million 
Americans-plus that have Filipino heritage. There is strong 
compassion among the American people, generally, to be engaged. 
People want to help. I think that is true internationally, but 
particularly true here in America. Is there any advice that you 
can give Americans who may want to participate in the relief 
effort as to how they can best interact into the coordinated 
efforts?
    Mr. Konyndyk. Absolutely. Our general advice is always--the 
best way to support, in the early response, is to give cash. It 
is the most efficient way to--to give cash to a reputable 
organization that they know and trust is the best way to get 
assistance in. In-kind assistance from the United States can be 
valuable, but it often costs more to ship it from the United 
States than the value of the assistance, itself. So, it is 
generally more efficient, and certainly a lot quicker, to 
provide cash assistance to, you know, groups like we met 
yesterday at the roundtable meeting.
    And, for more information on that, there is a Web site 
called CIDI.org, which is the Center for International Disaster 
Information, that is a USAID partner, and they have a lot of 
information there on how to give effectively in this kind of 
situation.
    Ambassador Marciel. If I could just add, Mr. Chairman, both 
USAID and State have been in touch with major Philippine-
American associations, talking--both briefing them on what we 
are doing, but also talking about ways that they can help, sort 
of, I hope, complementing your outreach efforts and those of 
other members, and then, looking forward, because there is 
still going to be a lot of work to do--you know, recovery, 
reconstruction. It is still early days, but talking to both 
Philippine-American associations, U.S. foundations, U.S. 
businesses, about how, going further down the road, they can 
contribute. So, this is going to be a long-term effort with a 
lot of coordination.
    Senator Cardin. Thank you.
    If Americans want to check on the status of relatives and 
friends, how do they go about doing that if they cannot make 
direct connections?
    Ambassador Marciel. Mr. Chairman, so the Embassy and State 
Department have been focused on American citizens first in--as 
a priority for us. And so, we have a system set up, through our 
own task force, where people who have been able to call in or 
e-mail in, talk to people, and then working with our Embassy, 
we have been able to, as I said, track down almost 475 
Americans, in response.
    For people looking to try to track down non-American 
citizens--Filipino nationals--it is a little bit harder, just 
given the numbers. We have encouraged them to, of course, 
contact Philippine authorities. The Red Cross in the 
Philippines can also help. The Philippine Red Cross has a Web 
site that families can reach out to directly to try to--or 
friends--to try to help locate Filipino citizens.
    Senator Cardin. Thank you.
    We know this is going to be a long-term project--first, of 
course, dealing with the immediate individuals that are still 
in harm's way, and then looking at how the United States 
properly can assist in dealing with the long-term needs. We 
would appreciate you keeping this committee informed as to the 
status and how you see the needs and the role that the United 
States should consider playing.
    Senator Rubio.
    Senator Rubio. Thank you.
    I have heard from a lot of people in Florida who are 
desperate to hear from their loved ones and to provide a 
helping hand during the relief-and-recovery operations. For 
example, Monica Andrade, a resident of Jacksonville, last spoke 
to her parents 5 minutes before they were evacuating, and she 
has not heard anything since, she said, and she has not slept 
for 5 days. What advice do we have for people in this 
circumstance that are trying to reach loved ones in the 
Philippines? I imagine it is still logistically pretty 
difficult. Do we have any advice that you would say I should be 
giving people desperate to hear from their loved ones and 
looking to offer a helping hand?
    Ambassador Marciel. Senator, I wish there was an easy 
answer. Again, if they are Philippine citizens missing or who 
have not been heard from in the Philippines, perhaps going to 
the Philippine Red Cross Web site, where you can make 
inquiries, as well as contacting Philippine authorities, who 
are, I think, in a long effort to try to make sure everybody is 
found.
    I think--maybe Jeremy could speak a little bit to the 
communications, because I think one of the problems is cell 
phone connections were lost, and that will be key to getting 
that going again.
    Mr. Konyndyk. Yes, absolutely. Thank you, Senator.
    The communications infrastructure, especially in the 
coastal areas, was just ravaged by the storm. It is slowly 
returning, and there is 3G coverage now. It is spotty, but it 
is there in Tacloban City. So, we are seeing that slowly 
restored.
    I know, as well, that the Philippines Embassy here has set 
up some mechanisms for citizens to check up on their relatives 
in the Philippines, and can be a hub for information on that. 
So, I think they could be directed there, as well.
    Senator Rubio. We have also heard from several 
organizations--the Filipino-American Association of Southwest 
Florida in Cape Coral, the Council for Filipino-American 
Organizations--they are looking for ways to help in the relief-
and-recovery efforts. What advice do we give them, in terms of 
streamlining their efforts to make sure it reaches the intended 
beneficiaries as quickly and as efficiently as possible?
    Mr. Konyndyk. Well, if they are Filipino-American groups, I 
would imagine they have very good connections with communities 
there in the Philippines. And that is often one of the best 
protections. You know, you want to make sure that any group 
that you are supporting actually has a footprint that is 
relevant to the nature of the crisis. And so, I would image 
that--you know, many Filipino-American organizations will have 
links to community groups in the Philippines that would have 
that kind of a footprint.
    And again, I would underscore that it is always best, in 
this kind of a situation, to support them with cash. Not only 
is that more efficient, but it also helps support the recovery 
of local markets. So, if we bring in--you know, if groups bring 
in a lot of in-kind supplies, then those are supplies that are 
not being bought in the Philippines are not ending up in the 
Philippines economy.
    So, those would be a couple. And there is a lot more on the 
CIDI.org Web site.
    Senator Rubio. I think you have both answered this before. 
I might have missed it as I was taking notes here. But, what is 
the Federal agency in our Government that has the lead and 
convening power, in terms of our relief efforts?
    Mr. Konyndyk. So, that is my office. We have--under the 
Foreign Assistance Act, there is authority that is delegated to 
the President, which is then delegated to USAID as the lead 
Federal coordinator on international disaster response. And so, 
we have been coordinating--we work with the military to 
validate requests, and work with them to help steer their 
effort toward where it is the most value-add, and working 
closely with the State Department and other interagency 
colleagues on that coordination.
    Senator Rubio. Related to that, one of the things we have 
seen in the past, from humanitarian crisis in places like the 
2010 earthquake in Haiti and others, is that children who are 
displaced become potential victims of trafficking and things of 
this nature. Reportedly, about 2 million children have been 
affected by Typhoon Yolanda in the Philippines. What steps are 
being taken, and who is thinking about steps we can take to 
reduce the risk of abuse and trafficking?
    Mr. Konyndyk. Absolutely. Yes, thank you. Absolutely, that 
is a serious concern. And trafficking in the--and I know that 
Scot can talk more to the trafficking aspect, in particular.
    On the USAID side, we have sent a protection advisor on to 
the Disaster Assistance Response Team to look into exactly this 
set of issues. We have also been, in all of our partnerships so 
far, ensuring that we do a technical review of those, that 
takes those kinds of issues into account to make sure that 
nothing that any of our partners are doing could inadvertently 
be supporting or enabling that. And, going forward, I think we 
are going to look into more specific program options to ensure 
that that is addressed.
    Senator Rubio. My last question is more in the geopolitical 
realm, but, I think, still critical, long term, as we go to the 
American people and justify our ability to project our 
influence abroad. Because if you look at this, it is a 
multifaceted response, right? It involves our aid agencies, our 
diplomatic programs. But it also involves military assets, in 
terms of being able to deliver aid and so forth, and it calls 
attention to why our military serves a purpose well beyond just 
conducting warfare. Obviously, that is its principal objective, 
is to provide for our national security, but it also has 
logistical capabilities that, quite frankly, are unrivaled and 
unmatched anywhere in the world.
    In contrast, the Chinese response to this has been so 
limited, at best. And there is all kinds of speculation as to 
why. What has been the perception of that? I mean, has that 
been noticed, that the Chinese are not there? They do have an 
aid ship--I think it is called the Peace Ark. It is a hospital 
ship that they have not made available. What is the perception 
as to why the Chinese have not participated more robustly in 
responding to this crisis in the Philippines?
    Ambassador Marciel. Senator, it is a good question. I would 
say, I absolutely agree with you, that we have responded fully 
to this crisis, for humanitarian reasons. But, I think it has 
shown-- 
I think, reinforced, in the minds of Filipino people, that we 
are a long-time and good partner that they can depend on and, I 
think, more broadly throughout the region, has highlighted what 
we have been saying throughout the region, that the U.S. 
military, as you said, in addition to being an unmatched 
fighting force, also brings unmatched logistical capabilities, 
which they use--unfortunately, have to use quite often in the 
region for disaster response. So, I think that is gone widely 
noticed.
    I would not want to speculate on, you know, why the Chinese 
have responded the way they have. I do know that, at some 
point, Philippine authorities suggested there was no need for 
further medical equipment and support. Whether that played a 
role on the hospital ship not coming, I am not sure. But, I 
think the more important point, from our perspective, is that, 
by doing the right thing, we have been seen in the region as 
doing the right thing.
    Senator Rubio. Well, just my editorial comment, to close. 
And I do not expect you to respond to it. We have this debate 
going on in this country about how engaged the United States 
needs to be around the world diplomatically in aid programs, 
and of course, militarily. And I would just point to this as an 
example of what would happen if the United States did retreat 
from the global stage. There is no substitute for the United 
States, as the people of the Philippines would probably agree, 
given our response.
    As far as the Chinese Government is concerned, all this 
talk about containing China--that is not really our goal. We 
would love to see the peaceful rise of China. But this is an 
example of Chinese foreign policy, which is a one-way street. 
Right? If you can go into these countries and do everything 
they want you to do, then they respond with cash assistance and 
things of this nature. On the other hand, it is well documented 
that they have territorial disputes with the Philippines, which 
the Philippines is right on and the Chinese are wrong on, and 
you have seen the result, now. When you have a humanitarian 
crisis, the Chinese have been less than willing to respond. 
Compare that to the United States, which consistently has been 
willing to put aside whatever political differences we may have 
when a humanitarian crisis strikes. We saw it in Pakistan. We 
have seen it in Haiti. We have seen it here and in other 
places, and including Japan, of course, a very close ally. But, 
my point is, I think this is a graphic example of--imagine a 
world without an engaged United States. This response effort 
would not be at the stage it is at right now, and I think it is 
just, obviously, the right thing to do, but also calls 
attention to how important it is that we remain engaged, not 
just in this region, but all over the world.
    Thank you both for your service.
    Senator Cardin. Senator Rubio, thank you for your comments.
    Senator Flake.
    Senator Flake. With regard to Chinese involvement, also 
issues that they have disputes with the Philippines in the 
South China Sea--how much has that played, do you think, in 
their inability or unwillingness to help out?
    Ambassador Marciel. Senator, it is a good question. The 
disputes between China and the Philippines over maritime 
boundaries, in particular, are pretty well known. I do not want 
to try to speak for the Chinese Government, because I do not 
know how much, if at all, that has affected their response. 
But, certainly the disputes have been getting a lot of 
attention, and something we pay a lot of attention to, as well.
    Senator Flake. We have heard mostly about the efforts in 
Tacloban. Can you tell about some of the efforts in some of the 
other provinces or islands? What is the United States doing?
    Mr. Konyndyk. Absolutely. So, the storm first made landfall 
in the area of Guiuan, which is in the far east of Samar 
Island, and then continued along through the central 
Philippines, going almost directly over top of Tacloban City 
and onward across the northern tip of the island of Cebu and 
then some of the islands further west. It had weakened by that 
time. So, the worst damage that we have seen, really, is in 
that--about a 40-mile--a 40-mile strip north and south of the 
central path of the typhoon. And the worst affected really are 
in those coastal areas from Guiuan in the east over to Tacloban 
and then Ormoc, on the other side of Leyte Island. After that, 
it is bad, but it was not--we did not see the ferocious storm 
surge.
    So, the U.S. military, working in partnership with USAID, 
has been delivering aid shipments all over those coastal areas. 
And there is a great map--I do not have it with me, but we can 
make sure you get it--that the Marine units did, just showing 
where they did all those airdrops--not--I am sorry--all those 
deliveries, excuse me--and that it just--there are dots all 
over that coast, all over those coastal areas. So, that is 
really where it has been focused. And now we are also starting 
to look into some of the inland areas, which suffered wind and 
rain damage, but obviously not the storm surge.
    Senator Flake. All right. The World Bank has made loans 
available, or will make loans available, for better buildings, 
more storm-resistant infrastructure there. Are the 
Philippines--the Philippine Government able to participate or 
to take advantage of this, or not?
    Mr. Konyndyk. I would start by saying--I think in the 
wake--in the face of the storm surge like we saw there, there 
is only so much you can do. And I think we even saw that, you 
know, here, with Hurricane Sandy, a few years ago. You know, 
that is just a ferocious force.
    With that said, building improved buildings and a whole 
range of other natural disaster risk-reduction activities have 
been a focus of USAID's partnership with the Government of the 
Philippines, and the World Bank's partnership, for quite some 
time. I would certainly imagine that that will be a focus, 
going forward.
    This is a huge priority now for the whole development and 
humanitarian community, and I would expect that any tool that 
is appropriate to that context will be used. Yes.
    Senator Flake. Well, thank you.
    Ambassador Marciel. Senator, if I could just add----
    Senator Flake. Sure.
    Ambassador Marciel [continuing]. Real quickly. I think, per 
Jeremy's point, the Philippine Government actually did a lot to 
prepare for this storm, because they had a little bit of 
warning. And I think, if I remember right, they evacuated 
almost 800,000 people--evacuated, in the sense of bringing them 
to shelters. Again, not anticipating--none of us anticipated 
the storm surge which caused a lot of the damage and probably a 
lot of the deaths. And, since the storm, it, I think, has done 
a very good job of facilitating, not only ours, but 
international, assistance. I think they deserve a lot of credit 
for that.
    Senator Flake. Well, the first responsibility, obviously, 
of the U.S. Government, to make sure that U.S. citizens living 
there are taken care of. And I just want to commend U.S. 
Government response in that regard. I have family members who 
are there, serving Mormon missions, and there was a situation 
in Tacloban with a number of Mormon missionaries who were 
eventually brought to safety in Manila by a C-130 flying out of 
Tacloban. And they endured a lot. Gratefully, all were safe. 
But, the U.S. Government helped a great deal in that regard.
    So, are you--were you aware of that? Or----
    Ambassador Marciel. Senator, I was not aware of that 
particular case, but I certainly am aware that the U.S. 
military did transport a number of American citizens. I think 
123, if I remember correctly--I will double check that number--
from Tacloban up to Manila or to Cebu, people who were affected 
by the storm.
    Mr. Konyndyk. As well as a lot of Filipinos who have 
needed----
    Ambassador Marciel. That is right.
    Mr. Konyndyk [continuing]. Extra care. Yes.
    Senator Flake. That is right. Well, thank you for that. And 
thank you for the response.
    Senator Cardin. Senator Schatz, as I pointed out, is not a 
member of the committee, but we will give him the courtesy to 
ask questions through the Chair.
    Senator Schatz. Thank you very much, Mr. Chairman and 
members, for your indulgence.
    Thanks, to the testifiers. And, Mr. Ambassador, our 
condolences and our appreciation for all your good work.
    Director Konyndyk, could you take us through the next 6 to 
9 months as we move into the recovery phase? And, sort of, what 
is the best-case scenario, from a recovery standpoint, and what 
is the worst-case scenario? And what kinds of resources, 
American and international, private, not-for-profit, need to be 
put together so that we can avoid the worst-case scenario?
    Mr. Konyndyk. Absolutely, and thank you for that question.
    So, first, obviously, there is only so much we can 
speculate, because there is still a lot we do not know. We are 
gathering a lot of information. We are currently heavily 
focused on ensuring that we get the relief response right. And 
that has been an intense focus for the past 10 days. But, we 
are beginning to think, now, about the longer term and what 
that is going to look like. I will be traveling out tomorrow, 
and that is going to be a major focus of my trip, is exploring 
more of that.
    We know a couple of thing--you know, we know some things 
now. We know, for example, obviously, a transitional shelter 
will be an enormous priority. We are providing emergency 
shelter materials right now, the heavy-duty plastic sheeting 
that was shown earlier. And that can get people a certain 
period, but it is obviously not a long-term solution. Rubble 
clearance will be a significant challenge, and we are already 
talking with the military about whether there is a role for--
whether the U.S. military can play a role in that. That is 
obviously a significant policy question for the Government of 
the Philippines, as well.
    We know, as well, that things like agriculture will be 
very, very important to focus on. A number of important 
agricultural crops were wiped out by this storm. And this is an 
agricultural area. There is coconut farming, there is rice 
farming and other agricultural commodities. So, we are going to 
be moving swiftly, coordinating with the USAID development 
mission in the Philippines, to address some of those, what we 
would call, early recovery needs, and assure there are not 
deficits there.
    I would also point out that there is a robust development 
mission that the United States has in the Philippines, and they 
will be also prioritizing this response over the coming 6 to 9 
months.
    Senator Schatz. So, I think it has been established that 
the United States response has been robust, has been well 
coordinated, and has exceeded, by orders of magnitude, the 
response of any other country. But, my question for you is 
scale. Certainly what we are doing is a lot. How does it 
compare to the current needs? Are we anywhere near dealing with 
the consequence-management piece of this? Before we move into 
recovery, the response is, no doubt, robust, but is it enough? 
And how much more will we need to do in order to sort of wrap 
our arms around this problem in the next several weeks?
    Mr. Konyndyk. Yes. Well, I think the U.S. role, so far, 
obviously has been crucial in getting aid in, but also has been 
really crucial in setting the foundation for a much broader aid 
effort. So, by clearing out some of those initial logistical 
problems, in close partnership with the Government of the 
Philippines, we have really enabled a much broader aid response 
that, without that partnership between USAID, the State 
Department, and the Department of Defense, would not have been 
possible.
    In terms of resource availability, we are getting more and 
more clarity on that. There is a lot coming in now. The United 
States is still the largest, but Australia has put in a 
substantial amount. The U.N. itself, from its Emergency 
Response Fund, has put in a substantial amount. And I think 
that the total committed now--the U.N. has asked for $300 
million for the initial response, and I think, as of yesterday, 
there was about 55 percent that had been committed, which, for 
this point in a crisis, within just a few days of the appeal 
launching, is generally considered to be a pretty good figure. 
Now, that figure is not based on a huge amount of evidence, 
because it came out early. There is a lot more examination 
ongoing now of what that true scale of the need and the 
response requirements will be. And some of the other donor 
inputs are beginning to come online. So, I think we feel like 
it is in a good place for this point in time. The momentum is 
positive. The U.S. assistance and the U.S. role was absolutely 
critical in getting momentum and getting the ball rolling. And, 
going forward, we are going to--we will have to see how needs 
evolve, but I think we are on a good trajectory, for this point 
in the crisis.
    Senator Schatz. Thank you very much.
    And, Chairman, on behalf of the nearly 200,000 Filipino 
Americans living in Hawaii, we really appreciate your 
indulgence and all of your great work in this very difficult 
time.
    Thank you.
    Senator Cardin. Thank you, Senator Schatz, appreciate your 
being here.
    Today the Congress is here, and we are all focused on how 
we can help. And obviously, it is receiving the type of 
priority it should. One of the purposes for this hearing is to 
make sure that, in the months ahead, that the focus is still on 
how America can help with the international community and the 
Government of the Philippines. So, that is why I think it was 
particularly important to hold this hearing, but to let people 
know this is not the end of our interest on this issue as to 
how we move forward and proceed.
    Senator Markey is here, and he will be recognized.
    Senator Markey. Thank you, Mr. Chairman, very much.
    So, in the wake of the disaster, there is also a risk of 
secondary disasters--unsanitary drinking water, rapidly 
spreading virus. What precautions and measures are being taken 
to prevent outbreaks of infectious diseases? And I do not know 
if that question had been asked.
    Senator Cardin. No, it is not.
    Mr. Konyndyk. Thank you, Senator.
    That is a major concern of ours, and we have been paying 
very attentive--putting a very attentive focus on the health 
sector, from the USAID side.
    At this point, we have not seen, and the Department of 
Health has not seen, indications of disease outbreaks. It is 
always a risk in this kind of a situation, as you know, because 
of a lot of standing water and, often, poor sanitation. And 
that is why, from the very beginning, USAID, in partnership 
with our DOD colleagues, have really prioritized water and 
sanitation in our response, so that people have access to clean 
water and that they can address some of the sanitary issues and 
hygiene issues that often go hand in hand with that increased 
disease risk.
    Senator Markey. So, will our ship, the USNS Mercy, be 
deployed?
    Mr. Konyndyk. Do you want to address that?
    Ambassador Marciel. Senator, at this point, no. The Pacific 
Command was prepared to deploy, but Philippine authorities 
advised that they would rather have us focus in other areas, 
that they felt like they had sufficient assistance, plus their 
own resources, on the medical side.
    Senator Markey. At a time like this, we need to be focused 
on helping the survivors. And the USS George Washington and 
other ships are providing essential help in saving lives, but 
we also need to be concerned about the next storm and the one 
after that. How did the early-warning system perform? And how 
could it be improved?
    Mr. Konyndyk. It was certainly a significant factor in this 
case. And, while it is hard to speculate exactly how many lives 
it saved, I think we could say, pretty confidently, it 
definitely saved lives.
    USAID, both my office, the Office of Foreign Disaster 
Assistance, and our development mission in the Philippines, 
have worked for many years with the Government of the 
Philippines to help reinforce and build up their disaster risk-
reduction capacity. And they take that very seriously, because 
they are hit by disasters many, many times a year.
    In this case, the storm was anticipated well in advance, 
and there are regional meteorological networks that help 
contribute to that awareness. That enabled the Government of 
the Philippines to evacuate nearly 800,000 people into 
emergency shelters out of the way of the storm's path, as well 
as preposition food and some other commodities.
    Senator Markey. So, reports that the storm surge took many 
people by surprise, you think is exaggerated?
    Mr. Konyndyk. I think that--the storm surge was surprising. 
I think what we were anticipating was, certainly, heavy winds, 
rainfall--actually, we were anticipating a much worse rainfall 
problem than we saw. You know, and these predictions are never 
exact, but----
    Senator Markey. So, did the storm surge come as a surprise 
to our scientists, as well?
    Mr. Konyndyk. The storm surge--and much like, I think, with 
Superstorm Sandy, here, where the severity of the storm surge 
was not anticipated, I think it is a similar dynamic there. We 
anticipated some, but not a 30-foot storm surge.
    Senator Markey. Do you think, after Hurricane Sandy and 
after this situation, that we should begin to reevaluate what 
it is that we should be expecting, in terms of storm surges? Is 
the fact that the oceans are getting so much warmer and these 
storms much more dynamic now something that actually should be 
factored in to what it is that we--as warnings from storm 
surges?
    Mr. Konyndyk. You know, I think--and I am not--you know, I 
am not a scientist on these issues. Clearly, we need to factor 
in the potential for storm surge. And I am not sure what the 
science behind making that possible looks like, but it is 
something that, you know, our--you know, after any disaster 
like this, USAID does an after-action review that is pretty 
thorough, and I am sure that will be a factor that we are going 
to look at.
    Senator Markey. Yes. So, it is my understanding that many 
of the casualties occurred in government shelters that 
collapsed or flooded. Were they badly built and positioned, or 
was the storm just too strong?
    Ambassador Marciel. Sir, my understanding is that--I mean, 
I cannot speak for everyone, but, in general, people were 
evacuated to storm shelters that most of us anticipated would 
serve the purpose effectively, but the storm surge, in 
particular, that Jeremy described, I think inundated some of 
those shelters, even if they withstood the wind and the rain.
    Senator Markey. So, what was--this was an EF-4 tornado 
strength, you know, winds--what were these shelters built to 
withstand, do you know?
    Mr. Konyndyk. I do not know offhand, but we can look into 
that. I think there--there is going to be--certainly, once this 
initial period of intense relief activity settles down, there 
is going to be a lot of probing of those kinds of questions.
    Senator Markey. Yes. I think it might be advisable for us 
to work with them so that we might be able to give them a good 
recommendation as to what the strength should be, given, kind 
of, the predictable nature of intensifying of storms. I mean, 
you know, water expands when it is heated. The oceans are 
getting much warmer. And, as a result, the waves are much 
higher. As a result, the storms are much more devastating. OK? 
So, this is something that is scientifically indisputable and, 
I think, something that we should work with them to help them 
to think it through.
    It is worth noting that this typhoon was forecast to 
potentially hit Vietnam after it just struck the Philippines. 
Just last month, the United States and Vietnam agreed to a 
Civil Nuclear Cooperation Agreement. I think we should begin to 
think about whether or not we should be putting nuclear power 
plants, you know, with United States cooperation, in countries 
like Vietnam, knowing that, without proper protection, there 
could be catastrophic consequences that flow from the 
interaction of a natural disaster in a nuclear power plant that 
is not as strong or as well positioned as it could be. We just 
saw that in Japan, and they are going to be going several 
generations with the consequences of a natural disaster linked 
to nuclear power plants.
    And so, from my perspective, you know, I want to, you know, 
congratulate everyone who participated in helping, especially 
in these early stages of relief. But, I think, for USAID, for 
the State Department, for the Defense Department, I think that 
we all have to come together in a way that deals with the 
national security consequences of climate change, the impact 
that it is having upon our allies and our enemies that modifies 
their behavior, in terms of how they are able to, in fact, 
control their own environment and understand, then, what the 
consequences are for our national security because theirs is 
undermined.
    So, again, it is just one more warning, and if we needed 
it--it is a domestic issue, as well, with 65 tornados all 
dropping down in one day out in the middle West in the middle 
of November. This is unprecedented, the impact that climate 
change is having, and it has severe long-term national security 
consequences.
    And we thank both of you for your work.
    I thank you, Mr. Chairman.
    Senator Cardin. Well, let me join Senator Markey in his 
concerns. I mean, it is clear that the realities of more 
extreme weather require us to be engaged internationally on 
mitigating as much damage as we can with the new reality. Of 
course, the best course, as Senator Markey's been one of the 
leaders, is to do something about this, from the point of view 
of climate change. And I think both are important points, that 
the cost of these storms, in loss of life and in the cost of 
rebuilding communities, is enormous and beyond the capacities 
of governments to be able to respond to. And then, when you put 
certain facilities in these high-risk areas, the security issue 
becomes even greater, and the cost even greater. So, I thank 
Senator Markey for raising those issues.
    And I am very impressed by the U.S. response to this storm, 
and I thank both of you for your leadership.
    Mr. Konyndyk, we wish you safe travels tomorrow.
    Mr. Marciel, we wish you a speedy return here tomorrow for 
our second hearing, this week, of the subcommittee. But, we 
thank you both for your public service. And we will continue 
our interests, and we thank you for, not only your testimony 
today, but your willingness to keep us informed as we look at 
the long-term rebuilding process that is going to be necessary, 
and how the United States plays a role in that, and following 
up on Senator Markey's points as to what we should be doing to 
try to mitigate these types of disasters in the future.
    And with that, the subcommittee will stand adjourned. 
Thanks.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Map Submitted for the Record by Jeremy Konyndyk

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

          Responses of Director Jeremy Konyndyk to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Haiyan's estimated wind speeds were between 195 mi/h at 
its peak and 155 mi/h as it weakened and moved west, with wind gusts of 
up to 235 mi/h. The typhoon went directly through six provinces and 
affected roughly 9.5 million people. The typhoon caused unimaginable 
damage and left millions of people in need of assistance.

  <diamond> What are the initial cost estimates of how much the 
        response to the Typhoon will cost?
  <diamond> What can we do to prepare better in the future for these 
        types of unexpected storm surges both at home and abroad?

    Answer. As of November 25, the Government of the Philippines (GPH) 
estimates that Typhoon Yolanda/Haiyan resulted in nearly $560 million 
in damage, including approximately $300 million in infrastructure 
damage and nearly $260 million in agriculture damage. As of November 
29, international donors had pledged nearly $393 million to address the 
needs of populations affected by Typhoon Yolanda/Haiyan. The total 
amount pledged exceeds the $348 million requested by the revised U.N. 
Haiyan Action Plan (HAP) for the Philippines typhoon response. Both the 
GPH and U.N. are in the process of revising these initial damage 
estimates and resource requirements for the emergency relief through 
recovery and rehabilitation processes. The GPH plans to release its 
recovery and reconstruction plan around December 8, in advance of the 
U.N.'s Strategic Response Plan, which will be a revised version of the 
HAP based off of a U.N. multisector rapid assessment.
    Effective preparedness incorporates timely and accurate early 
warnings, as well as established procedures that enable communities to 
act on the available information. The Philippine Atmospheric, 
Geophysical, and Astronomical Services Administration (PAGASA) issued 
storm warnings that highlighted potential wind strength, rainfall, 
storm surges, flooding, and landslides. Improvements in oceanic and 
atmospheric modeling, as well as strengthened data monitoring and 
collection along coastal areas, would enable more location-specific 
storm surge forecasts.
    As evidenced by the prestorm evacuation of nearly 800,000 people, 
the Government of the Philippines has preventative measures in place to 
mitigate the human impact of large-scale storms, and used them to great 
effect to save countless lives during Typhoon Yolanda/Haiyan. However, 
variance in prestorm evacuations across communities indicates more can 
be done to encourage appropriate action at the local level. One of the 
most critical components to preparing for storm surges at home and 
abroad is the dissemination of information and appropriate guidance to 
communities when a warning is received. Communities need to understand 
the warning and associated appropriate action. Therefore, a system that 
integrates monitoring and data gathering with dissemination to and 
preparedness activities by at-risk communities is the most effective 
method for preparing for future storm surges.
    Toward that end, current USAID Office of U.S. Foreign Disaster 
Assistance (USAID/OFDA) disaster risk reduction programs in the 
Philippines have engaged with various sectors of civil society, such as 
community-based organizations, local nongovernmental organizations, and 
institutions of higher learning, to more fully integrate the whole-of-
society Community-Based Disaster Risk Reduction approach that is 
necessary to actualize the aspirations of the supported communities. 
These efforts will continue and, where applicable and appropriate, we 
will seek to incorporate relevant disaster risk reduction measures into 
our early recovery efforts.

    Question. When the Haiti earthquake struck, ODFA had to shift funds 
from other crises to respond to the Haiti crisis. Some responses were 
cut by as much as 40 percent.

  <diamond> What steps are you taking now to ensure that OFDA can 
        respond adequately to the needs of our Filipino allies and not 
        cut some of the funds for less publicized crises around the 
        world?

    Answer. In FY 2014, USAID/OFDA may have to make very difficult 
tradeoffs among humanitarian assistance priorities, depending on the 
outcome of the International Disaster Assistance (IDA) appropriation. 
USAID/OFDA's budget is already strained by the overwhelming cost of 
responding to the crisis in Syria, with spending levels in FY 2014 
expected to increase significantly from the FY 2013 level of $252 
million. Syria has been a strain on the USAID/OFDA budget on an ongoing 
basis rather than for just 1 fiscal year.
    FY 2014 humanitarian needs from other major complex, less 
publicized, worldwide emergencies are expected to be similar or greater 
than in FY 2013. Under some appropriations scenarios, USAID/OFDA would 
be able to maintain robust responses for Syria and the Philippines, and 
maintain adequate worldwide programming for ongoing disasters and 
response readiness for new small- and medium-scale disasters.
    Other appropriations outcomes may necessitate difficult tradeoffs 
among ongoing programs and initiatives. For example, USAID/OFDA would 
have to scale back or forgo programs to improve the resilience of 
communities prone to disaster shocks--the very types of programs that 
help prepare communities to cope with shocks and save money on response 
costs over time.

    Question. I understand the administration is utilizing some local 
and regional procurement of food to ensure vulnerable families are able 
to get desperately needed food.

  <diamond> Could you explain the amount of time it will take to 
        procure food locally versus the amount of time it would take to 
        ship U.S. commodities to the populations in need?
  <diamond> What other innovations in humanitarian response are being 
        utilized?

    Answer. So far in the Philippines, USAID's Office of Food for Peace 
(USAID/FFP) has responded with both local and regional purchase of food 
and U.S. in-kind food commodities. Immediately following Typhoon 
Yolanda/Haiyan, USAID contributed $7.75 million to the U.N. World Food 
Programme (WFP) to facilitate the local and regional purchase of food 
for immediate distribution through the Government of the Philippines 
Department of Social Welfare and Development. This included 2,400 
metric tons (MT) of rice purchased in the Philippines, which was 
already being distributed 5 days after the storm and high-energy 
biscuits airlifted from Dubai. Using $2.3 million of Title II 
resources, USAID airlifted 55 MT of emergency food products from Miami, 
FL, and authorized the shipment of 1,020 MT of rice from its 
prepositioning warehouse in Colombo, Sri Lanka. The prepositioned rice 
is expected to arrive during the first week of December arrived in Cebu 
on December 3.
    The ability to respond with both Title II resources for U.S. in-
kind food and cash resources for local and regional purchase has been 
critical to USAID's support for a quick response. Generally, purchase 
of U.S.-sourced rice to be sent to the Philippines can take 7 days to 
order, 45 days to reach load port, and another 40 days to ship, for a 
total of more than 13 weeks.
    Several independent analyses point to a clear consensus: local and 
regional purchases allow partners to purchase food closer to the site 
of an emergency, thus getting food to those in need 15-16 weeks faster 
on average and at up to 34 percent less cost than traditional U.S. in-
kind food aid.
    Each crisis where food assistance is needed should be evaluated 
based on the local context to determine the most appropriate 
intervention. This will require flexibility to use a variety of tools 
in order to ensure we reach those in need.
    USAID currently has a variety of tools available to respond to 
crises: U.S. commodities, vouchers, transfers, or local and regional 
purchase of food. These resources are available to USAID through Food 
for Peace Act funds and IDA funds. IDA funds became available to USAID/
FFP in 2010, to be used when USAID's in-kind food aid cannot arrive in 
time or other forms of assistance are more appropriate due to local 
market conditions.
    In Syria, for example, we are implementing multiple approaches that 
are specifically tailored to the situation given the intense conflict 
and political uncertainty. WFP, with funding from USAID, has provided 
debit cards and vouchers to nearly 1.3 million refugees to purchase 
food available in host country markets. USAID and WFP are also 
purchasing wheat regionally for use inside Syria, as security concerns 
have limited the ability of USAID and its partners to transport and 
distribute in-kind food aid.
    Limited access to flexible resources, however, means that we may 
well face a situation where we respond not so much based on what is the 
most appropriate, effective and timely tool, but rather by what 
resources we have on hand. As the Philippines crisis has shown, 
disasters can occur at any time, and flexibility is needed to respond.
                                 ______
                                 

                 Response of Scot Marciel to Question 
                Submitted by Senator Benjamin L. Cardin

    Question. Following the typhoon, U.S. Charge d'Affaires Brian L. 
Goldbeck issued a disaster declaration, and USAID, through the Office 
of Foreign Disaster Assistance, authorized funds to be released for the 
initial implementation of an emergency response program. As of November 
19, the United States has provided $37,230,302 in humanitarian 
assistance.

  <diamond> (a) Has any funding been shifted from other crises, like 
        Syria, to respond to the Typhoon?
  <diamond> (b) If so, how has that affected our effectiveness in 
        dealing with those crises?

    Answer. We have not had to divert any funds from ongoing 
humanitarian crises to respond to the typhoon in the Philippines. Given 
the scale of the humanitarian crisis in Syria, other global needs, and 
the possible long-term response that is required in the Philippines, 
the U.S. Agency for International Development's Office of Foreign 
Disaster Assistance will continue to monitor all demands on their 
resources to determine if a future redistribution of humanitarian 
assistance funds may be required.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
